                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A03090049
                                                                                   11           Page 1 of 1



                  We learned from a university1that it was proceeding with a detailed investigation of one of
          its faculty members2 who was the PI on two NSF awards: including one CAREER award. The
          allegation involved fabricated citations and the existence of two manuscripts in each of the
          proposals. The university made a finding of research misconduct citing an extensive pattern of
          misrepresentation in proposals to several Federal and private funding sources. We concurred with
          the university's finding and based on the attached report of investigation recommended that NSF:
          send a letter of reprimand containing a finding of research misconduct; debar the PI for a period of 2
          years; and require the PI to submit certifications and assurances for 3 years after the debarment
          period. In the attached letter from the Deputy Director, NSF made a finding a research misconduct
          and required certifications and assurances for 3 years from the date of the finding.

                     Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
                                   NATIONALSCIENCE FOLINDATION                              . ..

                                       4201 w ILSONBOULEVARD.
                                      ARLINGTON, VIRGINIA 22230                                        ..




      OFFICE OF THE
     D E P W DIRECTOR
      .    .




          Re: Notice of Misconduct in Science Determination



          On or about July 27,2001, you submitted a CAREER proposal to the National Science
Foundation ("NSF') entitled

                                                --
           On January 25,2002, you were llSIc2d as the- Principal Investigator on another proposal
submitted to NSF, entitled
I\                I                                    As documented in the attached Investigative
Report prepared by NSF's Office of Inspector General ("OIG'?, in your biographical sketches
a c & &- ~ &
           -
             ~ these proposals, you characteriz'ed certain manuscripts that you authored as having-
been submitted to scientificj o k a l s when, in fact, they had not been so submitted.
                                                                                    .   .
                                                                                                   .            .

                                                                                                            .       . .




       Under NSF's regulations in effect at the time of the misconduct, "research misconduct" is
defined as "fabrication, falsification, plagiarism, or other serious deviation fiom accepted
practices in proposing, carrying out, or reporting results fiom activities h d e d by NSF ..." 45
CFR $ 689.1(a). A finding of research misconduct requires that:
          (1) There be a significant departure from accepted practices of the relevant research
              community; and
          (2) The research misconduct be comrnittql intentionally, or knowingly, or recklessly; and
          (3). The allegation be proven by a preponderance of evidence.

45 CFR 5 689.2(c).
                       .      In support of the two proposals that you submitted to NSF, you indicated that manuscripts
                       that you co-authored were submitted to two separate scientific jourqals. In addition, in the
                       CAREER proposal h d e d byNSF, you cited to another .manuscriptthat was allegedly submitted,
                       although the nature of this manuscript was not made clear. The OIG investigation ccnfums,
                       however, that these manuscripts were, in fact, riot submitted to scientific journals. Thus,your               .   .
          .       .
                       proposal .containsfabricated information regarding the status of the manuscripts cited. I therefore
      '       .        conclude that your actions meet the definition of '"research misconduct" set. forth in NSF's
                      'regulations.
                                                  .   .                                                                      .               .


. .       .
                             '~ursuantto NSF regulations, the ~oundationmust also determine whither to make a                    ,
                                                                                                                                                     .   .
                      finding of misconduct based on a preponderance of the evidence. 45 CFR '5 689.2(c). After
                      reviewing the Investigative Report and the University Committee Report, NSF has determined
                      that, based on a preponderance of the evidence, your misconduct was knowing and constituted a
                      significant departure from. accepted practices o f the relevax? reseaxch comhkity, I am,
                      therefore, issuing a 'finding of research misconduct against you.
                        .   .



                              NSF's regulations establish three categories of actions (Group I, IT, and m)that can be
                      taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
                      a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
                      requiring that an institution or individual obtain special prior approval of particular activities
                      from NSF; and requiring that an institutional representative certifL as to the accuracy of reports
                      or certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group II
                      actions include award suspension or restrictions on designated activities or expenditures;
                      requiring special reviews of requests for funding; and requiring correction to the research record.
                      45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
                      prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
                       suspension from participation in NSF programs. 45 CFR 5 689.3(a)(3).

                              In determining the severity of the sanction to impose for research misconduct, I have
                       considered the seriousness of the misconduct; our determination that it was knowing, the
                       determination that it was not an isolated event; your willingness to accept responsibility for your
                       actions; and the contrition that you demonstrated during the course of the investigative process. I
                       have also considered other relevant circumstances. 45 CFR 5 689.3 (b).

                                                                                                                                                 .
                              I find your misconduct to be inappropriate. There are, however, several mitigating factors             .

                       that we considered First, your conduct did not'have a significant impact on the research record.
                       Second, your misrepresentation of the status of your manuscripts likely was not a crucial factor in
                       NSF's decision to grant your proposals. Lastly, you admitted your error and displayed contrition
                                                                                                     ...
                       for yciu actions.
                                                                                                                  Page 3,
                                2 therefore, am requiring tbat, from the date of this letter until Januaty 31, 2008, you
                        '


                             .

                        certify that any documents submitted by you to NSF do not contain any fabricated or falsified,
                        information. Inaddition, for this same time period, an official from your employer mist provide          .           ,




                        written, assdance that any proposal submitted by you does not contain any,falsified or fabricated            .
                                                                                                                                                         , '




                        information. Such certifications and assurances should be sent t o the Office of Inspector
                        ~eneral,4201 Wilson Boulevard, Arlington, Virginia 22230..
                                                                                                        .        .
                            .       .                               .   .                                   .   , . .




                                                                                                                             .           .       .



                                Under NSFYsregulations, you have 30 days after receipt of this letter to submit an appeal
                        of this decision, in writing, to the Director of the Foundation. 45 CFR §689.1.0(a), Any'appeal
                        should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
                        Arlington, Virginia 22230. If we do not receive a response to this notice within the 30-day
                        period, this decision will become final. For your information we are attaching a copy of the
                        applicable regulations. If you have any questions about the foregoing, please call 1
                        Assistant General Counsel, at (703) 292-


    .       ,
                                    .   .
        .           .




                                                                                                                                                               .    .




                                                                                                                                 .                   .

                                                                            Deputy Director
                                                            .   .

                                                                                                                                                                   . .
.   .
                        ~ n c 1 0 s . m.            .                                                                   ..   .               .


                        - Investigative.Report
                                                        '




                        - 45 C.F.R. 689
                ,               '




                                            .   .
                .       .
                    .               :
        National Science Foundation
         Office of Inspector General




                        Confidential
                    lnvestrgatron Report
                  Case Number A03090049

                         30 September 2004


CONFIDENTIAL

NSF OIG FORM2 2 (1103)
                 ~
                                                Summary

         The Office of Inspector General (OIG) has concluded that the subject' fabricated the
existence and status of manuscripts that he cited in two awarded National Science Foundation
(NSF) proposals. After an investigation, the subject's university2 (Universityl) made a finding
of research misconduct under its policies and procedures.3 Universityl found that the subject
had "willfully misrepresented the publication status or existence of '4 two manuscripts in two
awarded NSF proposals, one of which is an NSF CAREER proposal.5 Universityl issued a letter
of reprimand, and substituted a new PI on the CAREER award with the approval of NSF.
Universityl 's investigation also included allegations arising from an earlier investigation by
~ n i v e r s i t ~where
                   2 , ~ an investigation resulted in the subject signing a settlement agreement with
the Public Health Service (PHs) based on findings of plagiarism and fal~ification.~       We conclude
that the subject committed research misconduct while submitting proposals to NSF and has
demonstrated a pattern of misrepresenting data and his publication record. Thus, OIG
recommends that NSF:

                   send a letter of reprimand to the subject informing him that NSF
                   has made a finding of research misconduct;

                   debar the subject from receiving federal funds for a period of 2
                   years commencing with the finding of misconduct;

                   require the subject to certify for 3 years after the debarment period
                   that any documents submitted to NSF by the subject do not contain
                   any falsified or fabricated information; and

                   require the subject to submit assurances by a responsible official of
                   the subject's employer for 3 years after the debarment period that
                   proposals submitted by the subject to NSF do not contain any
                   falsified or fabricated information.




4
    Tab 11. March 30.2004. letter. Dane 1.




' Tab 15, "Voluntary Exclusion Agreement," page 1.
                                           The Universitv's Inquiry

        In accord with NSFYsResearch Misconduct regulation,8Universityl notified OIG that it
had convened an inquiry committee and found substance to warrant an investigation of
allegations involving two active NSF awards. The subject allegedly committed misconduct by
submitting proposals to NSF and five other funding sources with citations to non-existing
manuscripts. Universityl supplied OIG with a copy of its inquiry committee's reports and
supporting doc~mentation.~

        OIGYsreview determined that the subject received two NSF awards in which the proposal
biographical sketches each included two allegedly non-existent publications labeled as
"submitted" to prominent journals.1° Within the project description of the NSF CAREER
proposal, the subject also referenced a "submitted" manuscript, although it was unclear to what
manuscript the subject was referring.'' Each citation identified the subject as the first author and
included his postdoctoral advisor at university212 as the only co-author. Universityl provided us
with copies of its inquiry committee's correspondence with the postdoctoral advisor, who stated:
"Neither of the papers . . . was ever discussed with me, and I am unaware of any submission of
either paper."13

        The Universityl inquiry committee report also included portions of proposals that the
subject submitted to five other funding agencies14containing references to a total of three
different r n a n u ~ c r i ~ tco-authored
                                s'~        by the postdoctoral advisor and listed as either "submitted
or "in preparation." The manuscript citations in the NSF proposals were among the three the


 45 C.F.R. 4 689.4(b)(2).
 Universityl's first inquiry report focused on the allegation it received £tom University2, which involved the
misrepresentation of a figure in a proposal submitted by the subject to the Petroleum Research Fund (PRF): see
Tab 4 (inquiry charge and report), Tab 5 (University2 investigation report including written statement by subject),
and Tab 6 (proposal submitted by the subject to PRF).
  While conducting the inquiry, Universityl identified citations to allegedly fabricated manuscripts in proposals to
NSF and other agencies, resulting in a second inquiry report: see Tab 7 (inquiry charge and report), Tab 8 (query to
subject's postdoctoral advisor and response), and Tab 9 (excerpts £tom proposals submitted by subject while at
University1 to PRF, the American Cancer Society, the m t a k e r Foundation, the March of Dimes, and the Office of
Naval Research (ONR)).



biographical sketches.
" Tab 2. vroiect descrivtion. Dage 2.



"Tab 8,page 1.
14
  See note 9.



is cited in two proposals to the American Cancer Society (Tab 9). Because the title of this manuscript differs £tom
the title of the other JACS manuscript by a single word substitution, it is possible that these two manuscripts are the
same.
inquiry committee questioned.'6 These additional citations suggested a potential pattern of
misconduct that further supported the need for an investigation with regard to the subject's
submissions to NSF.

        Thus, OIG determined there was substance to warrant an investigation, and OIG referred
an investigation to ~ n i v e r s i t,~l 7lwhich it accepted. OIG deferred its investigation pending
receipt of Universityl's report.18

                                         The Universitv's Investigation

        Universityl formed an ad hoc committee (the Committee) to investigate several
allegations against the subject, including the citation of allegedly non-existent manuscripts in
two awarded NSF proposals.1g Universityl formally charged the Committee to address
allegations that the subject:

         inappropriately used, described, and attributed a micrograph in a proposal
         to the Petroleum Research Fund and that he has improperly stated the
         existence, publication status, and/or authorship of several papers listed in
         his biosketch and several proposals.[201

Although this charge encompasses allegations in addition to those in OIGYsreferral, all of the
allegations investigated by the Committee ultimately bore on whether the subject's allegedly
fabricated citations were part of a larger pattern.

       OIG received the Committee's investigation report covering all of the allegations in its
charge.21 OIG also received a letter from the Associate Vice President for Research Integrity
(the AVP), specifically addressing the allegations pertaining to the NSF awards,22and a copy of
the subject's letter of resignation from the faculty of Universityl .23

                               Alleaations Directly Involving the NSF awards

     With regard to the allegations directly involving NSF awards, Universityl stated that the
Committee found:

         A preponderance of the evidence demonstrates that [the subject] willfully
         misrepresented the publication status or existence of the manuscripts.
         This misrepresentation was a serious deviation from accepted practice in
         the relevant research community, which is truthfully to report the status of
         publications that are mentioned in support of proposals. The investigating

l6  Tab 7, Letter dated August 3, 2003.
17
    Tab 10, OIG Investigation referral letter.
Is 45 C.F.R. 6 689.6(a).
l 9 ~ a 18.
         b
20
    Tab 18, page 1.
" Tab 14.
22 ~ a 11.
         b
23 Tab 12.
        committee does not believe that the misrepresentation will have a
        significant impact on the research record.[241

Furthermore, University1 found that the subject's actions were part of a larger pattern, noting
that proposals submitted to other funding sources list the two manuscripts cited in the NSF
proposals.25

        The Committee based its conclusions regarding the allegedly fabricated manuscripts and
citations on statements made by the subject in an interview26and in writing. In his October 9,
2003, written statement, the subject stated:

        You will notice that the status of papers was indicated as "in preparation"
        early on, and that after [my postdoctoral advisor] has filed a complaint
        against me I have removed them from my CV (in ONR and later
        proposals). In June 2001 I have written them for submission to the
        indicated journals. I have sent several emails to [my postdoctoral advisor]
        asking him questions regarding relevant science, and never received
        replies. I have also sent him by email the second [Petroleum Research
        Fund (PRF)] and my NSF-CAREER proposals. I did not sent [sic] the
        manuscripts out. I was confident that I would do so within a month or two
        after proposal submission, and I new [sic] that the papers are prepared and
        will be delivered on the promise. I especially wanted to stake them out
        given my lack of confidence in [my postdoctoral advisor] for
        acknowledging any of my work (e.g. I was sure that I will be scooped by
        his new postdoc, just as I was already scooped from part of my data during
        my work with him). In the end I could not overcome my aversion to
        sending the papers for review without some reply from [my postdoctoral
        advisor], especially given my uneasy feelings with regard to my
        relationship with him. I should have been more careful and indicated
        them both as "to be submitted". On the other hand, I always felt that the
        ensuing events have clearly made it impossible in this case. I must stress
        again that I have appended to this letter the data justifying the specific
        statements regarding my prior research mentioned in the text of the
        proposals. I was not basing my proposed work on false premises.[271

In his email response to the Committee's draft report, the subject again admitted to misstating the
status of the manuscripts:

        I categorically deny the charge that I have entirely invented any papers or
        data mentioned in my [Universityl] proposals. I have stated that I was
        careless in my statement in the proposal CVs that the papers were
        "submitted. . . . I regret that the committee states that I have

24 ~ a 11,
        b page 1.
25 Tab 11, page 1.
26 Tab 14, November 18,2004, letter, page 1.
27
   Tab 16, October 9,2003, statement, page 7.
        inappropriately listed [my postdoctoral advisor] as collaborator in my CVs
        and proposals. I do point out that my doing so was never 'motivated by
        claiming a "fame" of someone else to cover my work. I honestly believed
        that, since the work was done in [my postdoctoral advisor's] lab, I must
        include his name, even in a very informal circumstance of as yet
        unpublished work. I further point out that [my postdoctoral advisor] was
        aware of our work together. This is clear fiom his statements to the
        [University21 committee, and fiom the fact that he was furnished with the
        text of my PRF and (I believe) NSF proposals.

        In conclusion, I fully realize and agree that I should have been (i) careful
        in how I state any of my prior work in proposals; and (ii) tried to resolve
        my general animosity with [my postdoctoral advisor], and communicate
        clearly with him regarding the exact status of the work I have done for
        h m , and, most importantly, the validity of any data I have shown to him.
        My actions in the second charge against me were never driven by desire to
        deceive anyone. I have worked extremely hard, learned much, and did
        decent work while in [my postdoctoral advisor's] lab. I am not ashamed
        of the work I have done there, but I should have paid attention to the exact
        way I referred to it in my proposals.[281

The Committee reported that the subject did not deny the allegations, "but claimed some excuses
for such misrepresentation," which the Committee characterized as excuses "personal in nature"
and failing to ''justify the actions involved."29 The Committee concluded that the subject had
"improperly stated the existence, publication status, and/or authorship" of the two papers listed
in the biographical ~ketches.~'Furthermore, the Committee concluded that it is improper
practice to include co-authored papers in a biographical sketch without first consulting the co-
author.

                 Pattern ofBehavior in Alleaations Concerning Non-NSF Proposals

        In response to questions OIG raised in the investigation referral letter,32the AVP
specifically addressed the subject's pattern of conduct in relation to the NSF awards. OIG notes
that University1 charged the Committee to investigate allegations encompassing proposals
submitted to multiple funding sources including but not limited to NSF. Therefore, the
Committee addressed the proposals to other sources directly as allegations of misconduct rather
than peripherally as evidence of a pattern of behavior in relation to the NSF proposals. The AVP
wrote that the Committee identified several proposals submitted to other funding sources in
which the subject listed the manuscripts that are the focus of the allegations and concluded that
this indicated "a broader pattern" of mi~representation.~~


2s Tab 17, page 1.
29
   Tab 14, November 18, 2003, letter, page 1.
30 Tab 14, November 18,2003, letter, page 1.
3' Tab 14, November 18,2003, letter, page 2.
32 Tab 10, page 5.
33
   Tab11, page 1.
                 The Subject's Response to the Universitv's Investigation Report

        The subject responded to Universityl 's draft investigation report via e m a i ~addressing
                                                                                         ,~~
two substantive issues: the micrograph in the PRF proposal and the manuscripts referenced in
the proposals. The subject admitted the inappropriate use of the micrograph in the PRF proposal,
taking "full responsibility" for the "regrettable and inappropriate" action.35 He also addressed
the Committee's reference to "excuses" and asserted that his statements were intended "to
provide the fullest possible description of the relevant event^."'^

       With regard to the manuscript citations appearing in the NSF proposals, the subject
denied that he "entirely invented any papers or data mentioned" in h s proposals. He wrote that
he "was careless" in stating the manuscripts were submitted, explained his strained relationship
with his postdoctoral advisor, and indicated that he would seek help in properly citing
unpublished work in the future.37

                             The Universitv's Action Against The Subiect

        The Provost accepted the Committee's report and concluded that the subject had
"engaged in research misconduct, as defined in [Universityl 's] policy and as widely understood
in the scientific profession."38

        Universityl issued a letter of reprimand to the subject3' and requested that NSF approve a
change in PI wherein the subject would become the Co-PI of his own CAREER award. NSF
approved the change in ~ 1 . ~University1
                                 '          did not request a change in PI for the other award,
whch expired after a no-cost extension on May 3 1,2004.~'The subject resigned from the
faculty of Universityl effective June 3 0 , 2 0 0 4 . ~The
                                                        ~ NSF program officer informed OIG that
NSF terminated the CAREER award in conjunction with the subject's resignation.




34 ~ a 17.
        b
35 ~ a 17,
        b page 1.
36
   Tab 17, page 1.
37 Tab 17, pages 1-2.
38 Tab 13.
3 9 ~ a13.
        b
40 NSF notified Universityl by phone that the change had been approved. The conversation is documented in the
award jacket as a notation in the margin of an email.
4' This was an award for the purchase of instrumentation with several Co-PISlisted. The fmal project report for this
award was submitted through FastLane on June 30,2004, and was approved by NSF. Thus, it was not necessary to
request that Universityl appoint a substitute PI.
42 ~ a 12.
        b
                                             OIG's Assessment

        NSFYsResearch Misconduct regulation was revised effective April 17,2002. The
allegations in this case involve activity that took place prior to April 17,2002. For that reason,
OIG, in agreement with IVSF, applies the definition of research misconduct in effect at that time,
which defined misconduct as:

        Fabrication, falsification, plagiarism, or other serious deviation from
        accepted practices in proposing, carrying out, or reporting results from
        activities funded by NSF . . . .[431

For all other purposes, the current version of the Research Misconduct regulation is applicable.

        OIG concludes that Universityl followed reasonable procedures and produced an
accurate and complete body of evidence addressing the allegations that OIG referred regarding
the citation of non-existent manuscripts in NSF proposals. OIG finds that Universityl 's
evidentiary record, final report, and the AVP's cover letter addressing the issues specified within
the referral letter adequately and fully address the allegations in the referral. The factual
information contained within those documents adequately supports Universityl 's conclusions by
a preponderance of the evidence. Therefore, OIG accepts Universityl 's investigation report44in
lieu of conducting its own investigation, and addresses the rationale for recommending a finding
of research misconduct below.

        A finding of misconduct requires that (1) there be a significant departure fkom accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence.45

                                                 The Act

        With regard to the awarded NSF proposals, the subject allegedly fabricated the existence
and/or publication status of two manuscripts listed in his biographcal sketches as well as cited
an allegedly fabricated manuscript directly in the text of his awarded CAREER proposal. His
biographical sketches identified one manuscript as "submitted to Science" and the other as
"submitted to the Journal of the American Chemical Society." In the CAREER proposal text, the
subject also wrote:

        Polydisperse PBLGs, prepared by conventional polymerization methods,
        were known for over 40 years, and have been found to only form nematic
        and cholesteric LC phases7.Thus, the exact control of the DP resulted in
        observation of a distinct type of molecular self-assembly, both in the bulk,
        and in thin films and on solid substrates ([the subject], [his postdoctoral
        advisor], submitted). Another example is the biosynthesis of P-sheet

43 45 C.F.R. 9 689.1 (revised October 1,2001).
44 Tabs 11 through 18.
45 45 C.F.R. 6 689.2(c).
         polycrystalline materials, comprised of lamellar stacks of P-sheets shown
         in Figure lb8x9.Hence, precise control . . . .[461

It is notable that the subject embedded a arenthetical citation, in contrast to the endnote format
used throughout the rest of his proposal!     In each of the citations to "submitted" manuscripts,
the subject listed himself as the first author with his former postdoctoral advisor listed as the only
co-author.

         OIG notes that the two allegedly-falsified manuscripts listed on the biographical sketches
 are found under the heading "Five most closely related to the proposed research," and that these
 are the only publications in which the subject's postdoctoral advisor is identified as a co-
author.48 The subject listed the two "submitted manuscripts as part of the ten allowed, but the
biographical sketch indicated that those listed were out of twenty total publications that the
subject has a~thored.~'All eight of the others cited were publications with more than two
authors including the subject's dissertation advisor, only a few of which appeared in prominent
journals. The subject claimed to have "submitted" the manuscripts to two prominent, upper-
echelon journals with widespread readership in chemistry and the general scientific community.
Publication in these journals is a prestigious accomplishment, and the submission of manuscripts
bearing an established co-author's name implies a high level of integrity and quality to the
research, as well as suggesting likely acceptance by the journals.

        Universityl 's inquiry report contains copies of email correspondence between
Universityl and the former postdoctoral advisor regarding the existence of the manuscripts. The
postdoctoral advisor stated: "Neither of the papers . . . was ever discussed with me, and I am
unaware of any submission of either paper."50 Universityl also reported that the Committee
requested from the subject copies of documentation or other evidence to show that he had
discussed the manuscripts with his former advisor or letters acknowledging submission of the
manuscripts to the journal^.^' The subject provided some documentation directed at showing
that he had not fabricated the data upon which he based the proposed work, including two figures
he asserted were fiom the manuscripts,52but did not produce manuscripts in draft form of any
lund.

        OIG believes that the subject's failure to produce copies of the manuscript drafts is
indicative of the. fact that the manuscripts never existed. Although Universityl did not resolve
the existence of the manuscripts,53OIG believes that it is highly unlikely that the subject would


46
   Tab 2, project description, page 2.
47 In this textual citation, the subject did not identify to which journal he had "submitted this manuscript; therefore,
it is unclear if he intended the citation to refer to one of the "submitted" manuscripts in the biographical sketches or
to a third manuscript.
48 Tabs 2 and 3, biographical sketches.
49 NSF Grant Proposal Guide (June 2001 and January 2002) II.C.5.
50
   Tab 8, page I.
   Tab 14, November 18,2003, letter, page 1.
52 Tab 16, October 9,2003 statement, pages 10 and Figures 1 and 2.
53 University1 did not resolve the issue of whether the manuscripts existed, but concluded that the subject "willfully
misrepresented the publication status or existence of the manuscripts." See Tab 11, page 1.
produce only three figures54''justifylng [his] specific statements regarding [his] prior research
mentioned in the text of the proposals."55 Had the manuscripts existed in a form "a month or
two" away fi-om submission, as suggested by the subject,56he likely would have produced them
for the Committee in addition to the data he supplied. His statement indicates that two of the
figures "are exactly the same as in the relevant work from [University21 around mid-summer
2001 ."57 Furthermore, the subject stated that he "spent considerable time, money and effort
attempting to prepare [his] work fi-om [University21 for publication throughout the first half a
year or so at [ ~ n i v e r s i t ~ land
                                      ] " ~stated
                                            ~     "[iln June 2001 I have written them for submission to
the indicated journals."59 The subject was aware that University1 questioned the existence of the
manuscripts as indicated by his statement "I categorically deny the charge that I have entirely
invented any papers or data."60 If this were true, then supplying the draft manuscripts instead of
isolated figures to the Committee would have been the subject's best evidence against the
allegations of fabricated manuscripts and citations. Given the subject's failure to provide these
manuscripts in response to Universityl's request, OIG concludes that the subject did not offer
the "submitted" manuscripts as evidence because they do not exist.

        OIG agrees with Universityl that the subject's actions are a "serious deviation from
accepted practice in the relevant research community."61 NSF requires that investigators supply
biographcal information for senior personnel as part of the proposal submission process.62 With
regard to unpublished manuscripts, NSF explicitly instructs investigators to "list only those
submitted or accepted for publication (along with the most likely date of publication)."63 This
establishes a reasonable, but firm, demarcation between substantially completed research and
incomplete activities, without penalizing the investigator for the sometimes lengthy peer-review
process.

        Also, evidence suggests that by identifying his former advisor as a co-author on
manuscripts "submitted" to the journals, the subject may have influenced the review panel to
rank the CAREER proposal higher than it might otherwise have." One reviewer commented on
the subject's "excellent record of publications."65 With regard to "overly ambitious" aspects of
the proposed work, another reviewer wrote "the principal investigator will be assisted greatly by
h s excellent multidisciplinary training and there is no doubt that if the proposal is funded it will
lead to outstanding scientific results and publications."66 The only writings from his postdoctoral

54 Tab 16, October 9,2003 statement, Figures l , 2 , and 3.
55 Tab 16, October 9,2003 statement, pages 7.
56 Tab 16, October 9, 2003 statement, page 7.
57
   Tab 16, October 9, 2003 statement, page 10.
58 Tab 16, October 9,2003 statement, pages 2 and 3.
59
   Tab 16, October 9, 2003 statement, page 7.
60
   Tab 17, page 1.
   Tab 11, page 1.
62 NSF Grant Proposal Guide.
63 NSF Grant Proposal Guide (GPG) (June 2001) II.C.5.c and similarly for GPG January 2002.
64 Tab 19. In fact, the proposal ranked first of nineteen proposals, eleven of which were awarded. OIG's
understanding of the review process for CAREER proposals is that those ranked highly by the panel are guaranteed
funding, while those ranked lower require further program officer consideration to ensure that other program
objectives are fulfilled.
65 Tab 19, page 1 of 1, CAREER proposal reviews.
66 Tab 19, page 2 of 3, CAREER proposal reviews.
work listed in the proposal were the two "submitted" manuscripts and the vague citation
embedded in the text.67 In fact, the subject co-authored no publications with his former
postdoctoral advisor, although the research proposed in the CAREER proposal built on h s work
in his postdoctoral advisor's l a b o r a t ~ r y .The
                                                   ~ ~ only other publications the subject listed were out
of his dissertation advisor's 1aborat01-y.~~     When asked how the absence of publications from a
postdoctoral appointment in a panelist's evaluation of a CAREER proposal and NSF's approval
of the award, the program officer told OIG that not having any publications would suggest
unusual circumstance^.^^

        By citing manuscripts as "submitted" when in fact they apparently did not exist, the
subject has abused NSF's accepted practice for recognizing substantially completed work.
Generally accepted practice within the scientific community allows authors to cite unpublished
work at different stages in the research process. These conventions allow for data and
conclusions to be disseminated prior to its vetting through the peer-review process while
providing the reader with a relative benchmark for reliance on the material. For instance, initial
data or preliminary findings are often cited in the literature as "preliminary data" or
"unpublished." Manuscripts in progress may be cited "in preparation;" those submitted but not
accepted are appropriately identified as "submitted." Once the manuscript is accepted by the
journal, the author may then cite it as "in press," and when it is published may be cite it by its
formal and complete citation. The subject's false citation of non-existent manuscripts
representing the results of his postdoctoral research is a serious deviation from accepted practice
as well as a significant departure from accepted practice.

                                                       Intent

       The Committee report does not address the question of intent explicitly, however,
Universityl found that the subject acted "willfully."71 The subject's written statements as quoted
above support this conclusion.

       With respect to all of the proposals under investigation by the Committee, the subject
wrote that he expected to send the manuscripts out "a month or two" after submitting the
proposals.72 This statement supports the conclusion that the subject's actions were, at a
minimum, a knowing act. The subject submitted seven proposals,73including the two NSF
proposals, in which he listed one or both of the manuscripts as "submitted" over a ten-month
period. The only indication that the subject made any effort to correct the status of the
manuscripts was the subject's statement that, after a complaint was made, he "removed them
from [his] CV (in ONR and later proposals)."74


67 Tab 2, project description, page 2.
68 Tab 16, October 9, 2003 statement, page 7.
69 ~ a b 2s and 3, biographcal sketches.
70 Tab 2 1, Memorandum of Investigation.
71
   Tab 11, page 1.
72 Tab 16, October 9, 2003 statement, page 7.
73 Tab 9, except PRF proposal dated June 2 1,2001.
74
   The ONR proposal is dated October 24, 2002, with the subject's signature. It is the most recent of the proposals
reviewed in the Universityl investigation.
        In his response to the Committee's report, the subject stated he was "careless" in listing
the manuscripts as submitted. But in addressing his being "careless," he focuses his assertions
on the premise that the data were not fabricated and that he had collaborated with his former
advisor while collecting the data at University2. He failed to address the substance of the
allegation that he misrepresented the publication status and existence of the manuscripts.

         The subject's written response to Universityl 's investigation report raises another
important concern regarding his state of mind. The subject wrote that citing the manuscripts was
intended to secure some credit for the results he obtained as a postdoc, "to stake them out given
my lack of confidence in [my postdoctoral advisor] for acknowledging any of my work" at
~ n i v e r s i t ~ As
                    2 . ~mentioned
                          ~        above, the subject devoted a large portion of his written statements
to characterizing his "general animosity" toward his former advisor.76 Yet, in both his
biographical sketches and in the text of the project description, the subject identified the non-
existent manuscripts as "submitted" with his postdoctoral advisor listed as a co-author. OIG
believes that it is more likely than not that the subject intended citing the manuscripts as
"submitted" as a means of claiming not only his postdoctoral work (i.e.,the data) but also h s
association with his former advisor.77 By citing a non-existent manuscript in the text of the
proposal-the only such textual citation in the proposal-the subject drew the readers' attention
specifically to his association with his prominent postdoctoral advisor. In fact, he had not
published, submitted, or written anything from his work with his postdoctoral advisor. .

        Thus, OIG concurs with Universityl's conclusion that the subject "willfully
misrepresented" the manuscripts by citing the manuscripts as s~bmitted.~'Because the subject
did not produce actual drafts of the manuscripts, OIG further concludes that the subject
knowingly misrepresented to NSF the existence as well as the publication status of the
manuscripts.

                                                Standard o f Proof

       Univeristyl concluded by a preponderance of the evidence that the subject "willfully
misrepresented that publication status or existence of the manuscripts."79 OIG concurs with
Universityl 's assessment. Because the preponderance of the evidence shows that the subject
knowingly falsified the publication status and existence of manuscripts cited in his two awarded
NSF proposals, OIG concludes that the subject fabricated and falsified information in his
awarded proposals. Therefore, OIG concludes that a preponderance of the evidence supports the
conclusion that the subject committed research misconduct.




75
   Tab 16, October 9,2003 statement, page 7.
76 Tab 16, October 9, 2003 statement, page 7.
77
   See Tab 17, page 1.
78 ~ a b l l , ~ 1.
                 a~e
79
   Tab11,page 1.
                                    OIG's Recommended Disposition

      When deciding what appropriate action to take upon a finding of research misconduct,
NSF should consider:

        (1) How serious the misconduct was; (2) The degree to which the
        misconduct was knowing, intentional, or reckless; (3) Whether it was an
        isolated event or part of a pattern; (4) Whether it had a significant impact
        on the research record, research subjects, other researchers, institutions or
        the public welfare; and (5) Other relevant circumstances.[801

                                                  Seriousness

        OIG believes that the severity of the subject's actions is elevated because his misconduct
involves a CAREER award. CAREER awards are "the National Science Foundation's most
prestigious awards for new faculty members."81 In FY2002, the subject's award totaled
$400,000 for five years,82whereas the minimum award for FY2002 was $300,000.~~            NSF
review panelists evaluated the CAREER proposals based on intellectual merit and broader
impacts. The reviewers for the subject's CAREER award considered the subject's training and
publication record not only in assessing the proposal but also in ranking it first out of nineteen,
thereby assuring its funding.84 That assessment relied, at least in part, on the biographical
information submitted with the proposal that showed actual publications from his graduate work
as well as non-existent manuscripts based on his postdoctoral work.

                                                Dezree o f Intent

        OIG concludes that the subject's actions were done knowingly. In written statements to
the Committee, the subject admitted he listed the manuscripts as "submitted," at least in part, to
secure credit for research done and to prevent being "scooped" again.85 The subject stated he
intended to submit the manuscripts, which he asserted were complete, within "one or two
months" of the proposals' submission^.^^ In fact, the evidence indicates that the manuscripts do
not exist at all; the subject produced for the Committee only a few figures as evidence that the
data had not been fabricated. The subject submitted proposals citing the non-existent
manuscripts to four funding sources over the course of approximately ten months. The evidence
contradicts his asserted intention to submit the manuscripts "within a month or two" after
submitting the proposals.87




   45 C.F.R. 5 689.3(b).
   Program Solicitation, NSF 01-84.
82 The subject originally requested $485,514.

83 Program Solicitation, NSF 0 1-84.
84 Tab 20.
85 Tab 16, October 9, 2003 statement, page 7.
86 Tab 16, October 9, 2003 statement, page 7.
87 Tab 16, October 9, 2003 statement, page 7.
                                             Pattern o fBehavior

        According to Universityl 's investigation report, the subject submitted seven proposals to
four different funding sources, including the two to NSF, over approximately ten months during
which he characterized the non-existent manuscripts as "submitted." Those submissions
occurred between March 2001 and January 2002. Although the subject has expressed his
intention to have the manuscri ts submitted within "a month or two" of listing the manuscripts as
"submitted" on the               the subject continued to submit proposals over the course of
approximately ten months to multiple funding sources and did not correct any citations until after
an allegation was made.

         Universityl also found that the subject had "misrepresented" a micrograph in a PRF
proposal.89 The micrograph was also the focus of the University2 investigation. The subject
initially presented the figure, a "fudged image,"90to his postdoctoral advisor during a group
meeting at University2. His postdoctoral advisor ultimately relied on this image, incorporated it
into an NSF proposal,9' and later learned from another postdoctoral fellow that an identical
image had been found in a central database.92 When confronted by his postdoctoral advisor, the
subject initially denied that he had taken the image from the database. However, the
postdoctoral advisor received the subject's PRF proposal containing the fabricated figure
identified as yet a different material. Only after his postdoctoral advisor inquired again about the
veracity of the figure93and discussed the situation with the subject's dissertation advisor, the
subject admitted:

         that the final image presented on [sic] the group meeting, has had no trace
         whatsoever left of the original AFM data - I believe that in the process of
         generating a set of images from "cut and pasted" STM image, I have lost
         track of what is original . . . and have eventually chosen something that
         looked best . . . with perhaps somewhat altered contrast, brightness, and
         gray levels . . . seeing the final image that I was putting on the
         transparency for the group meeting, it was apparent enough to me that the
         image was misleading, misrepresented, and clearly unpresentable. But, I
         have failed to stop myself from proceeding, and have went [sic] on to
         present what amounted to a blatant lie.[941

The subject made similar statements in the Universityl investigation regarding the "fudged
image"95 and "highly processed scientific data with no real scientific meaning."96



   Tab 16, October 9, 2003 statement, page 7.
89 Tab 14, November 18,2003 letter, page 1.
   Tab 16, October 9, 2003, statement, page 2.
91 Tab 5.
92 Tab 5, University2 Investigation Report, page 3.
93
   Tab 5, University2 Investigation Report, page 3.
94 Tab 5, University2 Investigation Report, Appendix 1, page 2.
95 Tab 16, October 9, 2003 statement, page 2.
96 Tab 16, October 9, 2003 statement, page 2.
       University;?'~investigation resulted in a settlement agreement between the subject and
the P H S . ~With
              ~ respect to PHs funding, the subject agreed, for a period of three years, to a
supervisory plan, certifications, and exclusion from serving in an advisory capacity. The
agreement was signed in 2003, after the subject had submitted the CAREER and instrumentation
proposals to NSF.

        The subject's rationale for the "highly processed" image centers on his desire to garner
his postdoctoral advisor's attenti~n.~'In his written statements, the subject repeatedly addresses
the difficult circumstances in the lab at University;?, including his feeling "rather forgotten and
isolated" by his postdoctoral advisor who had assigned another postdoctoral fellow a parallel
project.99 The subject wrote to University;?: "if I could just show one piece of 'promising' data
on a group meeting, my supervisor . . . would 'let' me to continue working on the problem and
produce real data."loOThe fabrication appeared to achieve the desired effect because the subject
stated that his postdoctoral advisor "really 'liked' the image."lO' The subject did not disclose the
"blatant lie" when asked directly by his postdoctoral advisor. Rather, he admitted the
misrepresentation after the postdoctoral advisor had made additional inquirieslo2and after the
subject became aware that the figure had been used in an NSF proposal.103OIG believes that the
subject knowingly fabricated the figure to garner favor with his postdoctoral advisor and did so
as part of a larger pattern of misrepresenting the status of his work.

                                      Im-pact on the Research Record

        This case does not involve an impact on the published research record.

                                              Recommendations

        The subject's resignation limits Universityl's actions regarding this matter. Action by
NSF is necessary to protect the Federal government's interests. In light of the subject's pattern
of research misconduct, OIG recommends that NSF take action to protect the Federal interest.

        For these reasons OIG recommends that IVSF:

                 send a letter of reprimand to the subject informing him that NSF
                 has made a finding of research misconduct;

                 debar the subject from receiving federal funds for a period of 2
                 years commencing with the finding of misconduct;




" Tab  15.
98 Tab 5, University2 Investigation Report, Appendix 1, page 2.
99 Tab 16, October 9,2003 statement, page 2.
100
    Tab 5, University2 Investigation Report, Appendix 1, page 2.
lo' Tab 16,October 9, 2003 statement, page 3.
lo2 Tab 5, University2 Investigation Report, page 7.
'03 Tab 5,University2 Investigation Report, Appendix 2, page 1.
                  require the subject to certify for 3 years after the debarment period
                  that any documents submitted to NSF by the subject do not contain
                  any falsified or fabricated information; and

                  require the subject to submit assurances by a responsible official of
                  the subject's employer for 3 years after the debarment period that
                  proposals submitted by the subject to NSF do not contain any
                  falsified or fabricated information.


                    The Subiect's Response to OIG's Draft Investigation Report

        The subject responded to OIG's Draft Investigation Report with minor comments or
corrections. 104,105 He noted that NSF awarded $400,000 for the CAREER award and not the
$485,514 requested in the proposal. This report incorporates this information.




lo4Tab 22.
lo5In the Draft Investigation Report sent to the subject for comment, OIG recommended that NSF notify the
Department of Energy (DOE) of NSF's finding of research misconduct concerning the subject, because the subject
was then employed by                                          The subject indicated in his response to the draft that he
has resigned his position at Sandia. Tab 22, page 3.
